Appendix A
Table of Contents
Rule 14. l(i)(i)—Appellate Opinion/Order

A-l

Fifth Cir. (July 8, 2019) -Affd with Sanctions.
A-l
Rule 14.1(i)(ii)—Additional Orders

A-4

E.D.Tex. (Feb. 28, 2018) - Denying relief in
equity and Dismissing w/o Prejudice.. . .

A-4

E.D.Tex. (Feb. 1, 2018) - Unconsented-to
magistrate report................................

A-6

E.D.Tex. (Dec. 19, 2017) - Denying Mot.
Disqualify/Transfer..................... .

A-ll

Rule 14. l(i)(iii)—Rehearing
None...............................

A-37
A-37

Rule 14.1(i)(iv)—Judgment of Different Date. .. A-37
A-37
None
Rule 14.1(i)(v)—Statutes

A-37

TEX. Transp. Code § 502.001(45) (“vehicle”).
A-37
28 U.S.C.A. § 636(c) (in relevant part)

A-38

Rule 14.1(i)(vi)—Additional materials

A-38

Reference to the Record will suffice, in particular,
no “transportation,” from Doc. [1-1], ROA.12
(A-ii), and
no “consent,” from Docs. [1-1], ROA.61 (A-46 to
A-47), and [23], ROA.208 to .220 (Affid. arid, in
particular, Exs. A to D).
A-38

A-ii

-5

Appendix A
Rule 14.1(i)(i)—Appellate Opinion/Order
Fifth Cir. (July 8. 2019) — Affd with Sanctions.
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
No. 18-40272
Summary Calendar
United States Court of Appeals
Fifth Circuit
FILED
July 8, 2019
Lyle W. Cayce
Clerk
HARMON L. TAYLOR,
Plaintiff-Appellant
v.
CITY QF SHERMAN, a Municipal Corporation;
BRANDON SHELBY, City Attorney, officially and
individually; CODY SHOOK, Police Officer, officially
and individually; ASSISTING OFFICER, FNU LNU,
Police Officer, officially and individually; ZACHARY
FLORES, Chief of Police, officially; BOB UTTER
TOWING, Driver; BOB UTTER TOWING, Driver’s
Assistant; MIDWAY STORAGE FACILITY;
WHITNEY BREWSTER, Executive Director, Texas
Department of Motor Vehicles, officially and
individually,
Defendants-Appellees

Appeal from the United States district Court
for the Eastern District of Texas
USDCNo. 4:17-CV-488
Before DENNIS, CLEMENT, and OWEN, Circuit
Judges.
PER CURIAM:*
Harmon L. Taylor, proceeding pro se, appeals the
district court’s sua sponte dismissal without
prejudice of his federal civil rights suit pursuant to
[_l 2] Federal Rule of Civil Procedure 41(b) for want
of prosecution and failure to obey the court’s orders.
We review for abuse of discretion. Link v. Wabash
R.R. Co., 370 U.S. 626, 633 (1962).
Despite receiving notice of his obligations under
court orders, Taylor failed to participate in an
Ordered Federal Rule of Civil Procedure 26(f)
attorney conference, failed t6 appear at the January
19, 2018 Federal Rule of Civil Procedure 16
management conference, and failed to appear at the
subsequent February 1, 2018 show cause hearing as
ordered. Taylor’s refusal to participate in the case
was based on his incorrect belief that the referral to
the magistrate judge (MJ) for pretrial proceedings
was unlawful without his consent. We have held that
a litigant’s consent is not required prior to referral
before a MJ where, as here, “the ultimate decisionPursuant to 5TH ClR. R. 47.5, the court has
determined that this opinion should not be published
and is not precedent except under the limited
circumstances set forth in 5TH ClR. R. 47.5.4.
A-2

-3

making authority [is] retained by the district court.”
Jackson v. Cain, 864 F.2d 1235, 1242 (5th Cir. 1989).
Dismissal for failure to prosecute and comply with
court orders under these facts was not an abuse of
discretion. See FED. R. ClV. P. 41(b); McCullough,
835 F.2d at 1127.
Appellees City of Sherman, Bob Utter Towing,
and Midway Storage Facility contend that they are
entitled to recover costs and attorney’s fees against
Taylor in light of our previous sanction warning
against Taylor in Taylor v. Hyde [Hale], 396 F. App'x
[Fed. Appx.] 116, 117 (5th Cir. 2010). These
appellees fail to show entitlement to compensatory
sanctions. Fleming & Assocs. v. Newby & Tittle, 529
F.3d 631, 639 (5th Cir. 2008).
However, Taylor’s brief does contain numerous
instances of inflammatory and derogatory language
directed toward law enforcement in general and the
United States District Court for the Eastern District
of Texas and its judges in particular, in violation of
our prior order. While a pro se litigant’s pleadings
are entitled to liberal construction, we “simply will
not [j. 3] allpw liberal pleading rules and pro se
practice to be a vehicle for abusive documents.”
Theriault v. Silber,bl9 F.2d 302, 3Q3 (5th Cir, 1978).
Accordingly, sanctions are imposed against
Taylor in the amount of $50Q, payable to the Clerk of
this court. See Coghian v. Starkey, 852 F.2d 806, 808
(5th Cir. 1988). Taylor is barred from filing any pro
se civil appeal in this court or any pro se initial civil
pleading in any court which is subject to this court’s
jurisdiction, without the advance written permission
of a judge of the forum court or of this court, until the
sanction is paid in full. See id. Taylor is also
A-3

vi

i

:~1

cautioned that any future filings containing abusive,
disparaging and contemptuous language may result
in the imposition of further sanctions, including
further restrictions on his ability to file appeals or
pleadings in this court or in any court which is
subject to this court’s jurisdiction.
AFFIRMED; SANCTIONS IMPOSED.

Rule 14.1(i)(ii)—Additional Orders
E.D.Tex. (f’eb. 28.
- f)6hvifag relief in
equity and Dismissing w/o Prejudice.
Case 4:17-cv-00488-ALM-CAN Document 76 Filed
02/28/18 Page 1 of 2 PagelD #: 556
United States District Court
EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION
HARMON L. TAYLOR

§
§
§
§

v.
CITY OF SHERMAN, ET AL.

§

§

§
§

Civil Action No. 4:l7-CV-488
(Judge Mazzaht/Judge Nowak)

§
§

A-4

I

M

MEMORANDUM ADOPTING
REPORT AND RECOMMENDATION OF
UNITED STATES MAGISTRATE JUDGE
Came on for consideration the report of the
United States Magistrate Judge in this action, this
matter having been heretofore referred to the
Magistrate Judge pursuant to 28 U.S.C. § 638. On
February 1, 2018, the report of the Magistrate Judge
(Dkt. #72) was entered containing proposed findings
of fact and recommendations that Plaintiff Harmon
L. Taylor’s claims be dismissed pursuant to Federal
Rule of Civil Procedure 41. Plaintiff acknowledged
receipt of the report on February 5, 2018 (Dkt. #74).
Having received the report pf the United States
Magistrate Judge, and no objections thereto having
been timely filed, this Court is of the opinion that the
findings and conclusions of the Magistrate Judge are
correct and adopts the Magistrate Judge’s report as
the findings and conclusions of the Court.
It is, therefore, ORDERED that Plaintiffs claims
against Defendants are DISMISSED WITHOUT
PREJUDICE.
All relief not previously granted is DENIED,
including specifically Plaintiffs Motions for
Temporary Restraining Order (Dkts. #2, #24) and
Motions for Preliminary Injunction (Dkts. #3, #25).
U2]
The Clerk is directed to CLOSE this civil action.
IT IS SO ORDERED.
SIGNED this 28th day of February, 2018.
/s/ Amos Mazzant
AMOS L. MAZZANT
UNITED STATES DISTRICT JUDGE
A-5

E.D.Tex. (Feb. 1. 2018) - Unconsented-to
magistrate report.
Case 4:17-cv-00488-ALM-CAN Document 72 Filed
02/01/18 Page 1 of 4 PagelD #: 549
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION
HARMON L. TAYLOR,
Plaintiff,

§
§
§
§
§

v.
CITY OF SHERMAN, ET AL.,
Defendants.

§
§

§
§

§ CIVIL ACTION NO. 4:17-CV-00488-ALMCAN
§
§
§
§

REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE JUDGE
Pro se Plaintiff Harmon L. Taylor filed this action
on July 7, 2017 [Dkt. 1]. The case was referred to the
undersigned United States Magistrate Judge for pre­
trial purposes in accordance with 28 U.S.C. § 636.
Subsequent to filing, Plaintiff has failed to prosecute
A-6

a

s

fc=.

this action and has failed to comply with court
orders: Plaintiff failed to participate in the Rule 26(f)
meeting, failed to appear at the Rule 16 Manage­
ment Conference and Motions Hearing, and failed to
appear at the subsequent Show Cause hearing
ordered by the Court.
More specifically, on January 9, 2Q18, the Court
set each of Plaintiff Harmon L. Taylor’s Motions for
Temporary Restraining Order [Dkts. 2, 24], and
Motions for Preliminary Injunction [Dkts. 3, 25], and
Defendant City of Sherman, Texas’s Rule 12(b)(6)
Motion to Dismiss [Dkt. 18], Defendant Whitney
Brewster’s Motion to Dismiss on the Basis of Official,
Qualified, Eleventh Amendment Immunity and
Absence of Jurisdiction [Dkt. 19] and Rule 12(b)(1)
and 12(b)(6) Motion to Dismiss [Dkt. 21], Defendants
Bob Utter Towing and Midway Storage Facility’s
Rule 12(b)(6) Motion to Dismiss [Dkt. 20] for hearing
on Friday, January 19, 2Q18, at 2:00 p.m., at the
United States Courthouse Annex, 200 N. Travis
Street, Chase Bank Building, Mezzanine Level,
Sherman, Texas 75090. The Court also scheduled the
Rule 16 Management Conference [± 2] for that same
date. 1 Plaintiff and Counsel for each of defendants
were directed tp appear. Plaintiff acknowledged
receipt of the Order setting hearing on January 12,
1 In its Order Governing Procedures, in addition
to setting the Rule 16 Conference, the Court ordered
Plaintiff and Defendants to “confer and attempt in
gpod faith to agree on a proposed scheduling order
and to electronically file a joint report outlining their
proposals” [Dkt. 22 at 2]. Plaintiff also refused to
participate in the Rule 26(f) Joint Conference [Dkt.
57].
A-7

i

f*

2018 [Dkt, 67]. Notwithstanding Plaintiffs receipt of
the Order, Plaintiff failed to comply.
Indeed, on January 19, 2018, counsel for
Defendants City of Sherman, Whitney Brewster, Bob
Utter Towing and Midway Storage appeared in
person. Plaintiff failed to appear, despite being
ordered to do so. Neither the Court, nor the clerk’s
office were contacted by Plaintiff with any excuse or
other reason for Plaintiffs failure to appear; the
Court delayed the start of the hearing for forty-five
(45) minutes to allow Plaintiff an opportunity to
appear.
On January 22, 2018, the Court ordered Plaintiff
to appear in person on February 1, 2018 at 1:30 p.m.,
and show cause for his failure to prosecute this
action and comply with Court’s Orders, and explain
why he failed to appear at the Rule 16 Management
Conference and Motibns Hearing scheduled for
January 19, 26l8 [Dkt. 68]. The Court specifically
cautioned Plaintiff that his failure to comply with
the Court’s Show Cause Order would “result in a
recommendation for the dismissal of the claims filed
by Plaintiff without further notice.” Delivery was
made of the Court’s Show Cause Order to Plaintiffs
residence on January 31, 2018 [see Dkt. generally].
Plaintiff failed to appear at the February 1
Hearing. The Court allowed a thirty-five (35) minute
delay to allow Plaintiff an opportunity to appear.
Further, neither the Court nor the Clerk’s Office was
contacted by Plaintiff with any excuse or other
reason for Plaintiffs failure to appear.
Under Rule 41(b), a court may order the dismissal
of an action “[i]f the plaintiff fails to prosecute or to
comply with these rules or a court Order.” FED. R.
A-8

a

Civ. P. 41(b); see also Local Rule CV-41 (authorizing
the district court to dismiss an action for want of
prosecution sua sponte [x 3] whenever necessary to
achieve the orderly and expeditions disposition of
cases); Larson v. Scott, 157 F.3d 1030, 1031 (5th Cir.
1998); see generally McCullough v. Lynaugh, 835
F.2d 1126 (5th Cir. 1988) (a district court may
dismiss an action for failure to prosecute or to
comply with an order of the court); Magnuson v. Elec.
Data Sys. Corp., 252 F.3d 436, 2001 WL 360841
(5th Cir. 2001); Beard v. Experian Info. Sols. Inc.,
214 F. App’x 459 [Fed. Appx.] (5th Cir. 2Q07); FED. R.
CIV. P. 41(b). “This authority [under Rule 41(b)]
flows from the court’s inherent power to control its
docket and prevent undue delays in the disposition of
pending cases.” Boudwin v. Graystone Ins. Co., Ltd.,
756 F.2d 399, 401 (5th Cir. 1985) (citing Link v.
Wabash R.R. Co., 370 U.S. 626 (1962)). The exercise
of the power to dismiss for failure to prosecute is
committed to the sound discretion of the Court and
appellate review is confined solely to whether the
Court’s discretion was abused. Green v. Forney Eng’g
Co., 589 F.2d 243, 248 (5th Cir. 1979); Lopez v.
Aransas County Indep. Sch. Dist., 570 F.2d 541, 544
(5th Cir. 1978).
The Court recommends the instant suit be
dismissed for want of prosecution and/or failure
to obey Court Orders. Here, Plaintiff failed to
participate in the Rule 26(f) conference or appear
for the January 19 Rule 16 Management Conference
and Motions Hearing. Moreover, Plaintiff failed to
appear for the Show Cause Hearing, despite the
Court’s explicit warning that failure to do so would
result in a recommendation of dismissal. By failing
A-9

&

*

to appear for the 26(f) conference, Rule 16 Manage­
ment Conference, Motions Hearing, and Show Cause
Hearing scheduled in this action, notwithstanding
direct Orders from this Court, Plaintiff has both
failed to diligently prosecute this case, and has failed
to obey the Court’s Orders.
CONCLUSION AND RECOMMENDATION
Accordingly, the Court recommends that this case
be dismissed pursuant to Federal Rule of Civil
Procedure 41(b); and that each of Plaintiff’s claims
against Defendants be DISMISSED WITHOUT
PREJUDICE. [j. 4]
Within fourteen (14) days after service of the
magistrate judge’s report, any party must serve and
file specific written objections to the findings and
recommendations of the magistrate judge. 28 U.S.C.
§ 636(b)(1)(C). In order to be specific, an objection
must identify the specific finding or recommendation
to which objection is made, state the basis for the
objection, and specify the place in the magistrate
judge’s report and recommendation where the
disputed determination is found. An objection that
merely incorporates by reference or refers to the
briefing before the magistrate judge is not specific.
Failure to file specific, written objections will bar
the party from appealing the unobjected-to factual
findings and legal conclusions of the magistrate
judge that are accepted by the district court, except
upon grounds of plain error, provided that the party
has been served with notice that such Consequences
will result from a failure to object. See Douglass v.
United Servs. Auto. Ass’n, 79 F.3d 1415, 1417 (5th
A-10

-a

Cir. 1996) (en banc), superseded by statute on other
grounds, 28 U.S.C. § 636(b)(1) (extending the time to
file objections from ten to fourteen days).
SIGNED this 1st day pf February, 2Q18.
/s/ CAN
Christine A. Nowak
UNITED STATES MAGISTRATE JUDGE

E.D.Tex. (Dec. 19. 2017) - Denying Mot.
Disaualifv/Transfer.
Case 4:17-cv-00488-ALM-CAN Document 65 Filed
12/19/17 Page 1 of 16 PagelD 515
United States District Court
EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION
HARMQN L. TAYLQR
Plaintiff,
V.
CITY OF SHERMAN, ET AL.
Defendants,

A-ll

§
§
§
§
§
§
§
§
§

Sal
-’.ASl

i§

§
§
§
§

§ CASE NO. 4:17cv488
§ Judge Mazzant/Judge Nowak
§
§
§

ORDER DENYING PLAINTIFF’S MOTION
TO TRANSFER DISTRICTS DUE TO
DISQUALIFICATION OF THE
ENTIRE EASTERN DISTRICT
At the time of filing, the above-referenced case
was assigned to the undersigned and referred to
Magistrate Judge Christine A. Nowak for pretrial
purposes in accordance with 28 U.S.C. § 636(b)(1)(A).
Plaintiff Harmon L. Taylor, proceeding pro se
(“Plaintiff’) has filed a Motion to Transfer Districts
Due to the Disqualification of the Entire Eastern
District (Dkt. #42). In his motion, Plaintiff asserts
the judges of the Eastern District of Texas are
disqualified because of the district-wide policy of
magistrate judge “referral” at the time of case filing
in violation of 28 U.S.C. § 636. Thus, Plaintiff seeks
a transfer of the above case to the Northern District
of Texas, Dallas Division. Also before the Court are
the following related motions seeking to strike orders
entered by Magistrate Judge Nowak in this case:
(1) Motion to Strike Non-Consented to
Magistrate “Orders” (17,18) (Dkt. # 26);
(2) Motion to Strike Non-Consented to
Magistrate “Order” (22-1) (Dkt. # 43);
A-12

-M

(3) Motion to Strike Non-Consented to
Magistrate “Order” (30-1) (Dkt. # 47);
(4) Motion to Strike Non-Consented to
Magistrate ‘^Order” (41-1) (Dkt. # 48); and
(5) Motion to Strike Non-Consented to
Magistrate “Order” (58-1) (Dkt. # 63). [x 2]
The Court, haying carefully reviewed the relevant
briefing, is of the opinion Plaintiffs motions
should be DENIED.
FACTUAL BACKGROUND
"

.................... '

'•

- •• • •

•

•

i

•

Qn July 7, 2017, Plaintiff filed the above case
against the City of Sherman; Brandon Shelby,
individually and in his official capacity as city
attorney; Cody Shook, individually and in his official
capacity as police officer; Zachary Flores, in his
official capacity as chief of police; Bob Utter Towing;
Midway Storage Facility; and Whitney Brewster,
Executive Director of the Texas Department of Motor
Vehicles, in both her individual and official
capacities. 1 (Dkt. # 1). In his complaint, Plaintiff
asserts this matter contains a federal question in
that the subject matter concerns Plaintiffs right to
be free from unreasonable seizure. Id., t 2.
According to Plaintiff, on June 18, 2017, he was
stopped by City of Sherman police officer Cody Shook
(“Shook”) for the “alleged want of a DMV-approved
tag on the rear of the gar.” Id., ff 10, 20. According
to Plaintiff, as the conversation developed, “Shook
1 Plaintiff also sued three unknpwn defendants
(assistant police officer, driver, and driver’s
assistant).
A-13

J

.. -iS

:5?

made inquiry about insurance. There is none.” Id.,
*[f 22. Shook informed Plaintiff that “city policy”
requires him to order towed all “uxiinsured vehicles.”
Id., f 23. Plaintiff further alleges as follows:
As the conversation developed, [Plaintiff]
informed the ASSISTING OFFICER, in the
presence of SHOOK (the TICKETING OFFICER),
that their semantics were accurate but that their
facts were missing. [Plaintiff] informed them that
his car was/is not a ‘vehicle.’
Id., f 24.
Plaintiff alleges Shook called a tow truck and
“requested” Plaintiff give him the keys to the car,
which Plaintiff provided. Id., 27. Shook issued
Plaintiff a ticket with four Transportation Code [_l 3]
charges.2 Id., t 30. Plaintiff claims he was allowed
to remove groceries from his car and petty cash
from the glove box. Id., t 33. According to Plaintiff,
one of the officers saw his expired “registration” that
had been left in the glove box and asked about it. Id.,
1 34.
Plaintiff alleges Bob Utter Towing showed up,
and Plaintiff gave notice to the tow truck driver and
his assistant (who claimed to be his daughter) that
2 According to the City of Sherman’s Rule
12(b)(6) motion to dismiss, while Plaintiff attempts
to frame this suit as a Fourth Amendment violation,
“Plaintiff makes no further reference to the Fourth
Amendment but instead seeks the return of his
vehicle that was lawfully impounded after Plaintiff
was cited by the City of Sherman Police for: 1. No
driver’s license; 2. No license plate On his vehicle; 3.
Expired registration; and 4. No proof of financial
responsibility.” (Dkt. # 18 at 1).
A-14

they were stealing his car. Id,, 37. Plaintiff alleges
they drpve off with his car on a flatbed, and some
time later, Plaintiff s mom received a notice in the
mail “demanding ransom for the return of the car, to
her, including a per/day storage cpst.” Id., lit 38, 39.
According to Plaintiff, in September of 2016,
Plaintiffs mom “had terminated the ‘Certificate of
Title’ trust, A-46, which trusts are set up
clandestinely to the benefit of DMV and for which
the car was the trust res when the original
Manufacturer’s Statement of Origin (MSO) is traded
for the “Certificate of Title/” Id., t 40. Plaintiff
asserts when the MSO goes “in,” and the “Certificate
of Title” comes back “put,” a trust is created “for
which the car is the trust res and DMV holds the
‘equitable title.’” Id., t 41. Plaintiff claims he is the
only owner of the car, and he acquired full title to it
from his mom in exchange for silver after she had
terminated the “Certificate of Title” trust. Id., f 42.
Plaintiff claims that at no time was he transport­
ing people or cargo “for hire,” and he did not “consent
tp being regulated per ‘transportation’ standards,
including the Transp. Code or any municipal
ordinance pr policy.” Id., f f 43-44. Plaintiff states he
has demanded the return of his car, but as of the
date of filing, his car had not been returned to him.
Id.,
46-47. Plaintiff claims the [± 4] City of
Sherman and its agents or employees, along with
Bob Utter Towing and Midway Storage Facility,
were all acting under color of law. Id., If 29.
Plaintiff requests a Temporary Restraining Order,
Preliminary Injunction, and Permanent Injunction to
address the “emergency of getting [his] car returned
tp him immediately.” Id., 1f 48. He also requests
A-15

equity in the form of an Order compelling Defendant
Brewster to remove his car from DMV’s property
inventory roll. Id., f 49. He also requests costs. Id.,
151.
PROCEDURAL BACKGROUND
As noted above, at the time of filing, Plaintiffs
case was assigned to the undersigned and referred to
Magistrate Judge Nowak for the handling of pretrial
matters.3 Plaintiffs original complaint notes at the
top “No Consent to Non-Judicial Decision-Making.”
On the same day he filed his complaint, Plaintiff
filed a motion for temporary restraining order and a
motion for preliminary injunction. (Dkt. #s 2 & 3).
Plaintiff also paid the $460 filing fee.
It is the general policy of the Sherman Division
for the docketing clerk to provide to pro se
plaintiffs at the time of filing a “Notice of Case
Assignment” to a District Judge, along with a Notice
of “Magistrate Referral.” On July 14, 2017, Plaintiff
filed a Motion to Strike Standing Order. (Dkt. # 13).
In that motion, Plaintiff moved to strike the
referral of his case to Magistrate Judge Nowak,
making clear he does not consent to what he called
“non-judicial decision-making.” (Dkt. # 13 at 1).
According to Plaintiff, the “Notice delivered at filing
by the Clerk suggests that there’s a magistrate
referral, already.” Id. Plaintiff reiterated he does not
3 The assignment to District Judge Mazzant and
referral to Magistrate Judge Nowak went into
effect on July 7, 2017, tho date of filing. However,
the Notices were not docketed by the Clerk of the
Court until August 6, 26l7. (Dkt. # 28).
A-16

consent. He challenged the Court’s “Standing [x 5]
Order” regarding referral, stating it purports to
compel Plaintiffs consent in direct opposition to his
assertion pf non-consent. Id. at 2. Plaintiff requested
the Court strike its Standing Order and reevaluate
its pre-filing policy of magistrate judge referral. Id.
at 3. According to Plaintiff:
For there to be a form provided at filing to be
submitted by those whp consent, is, of course,
great. Where not all the forms come back, the
issue is resolved against referral. Where all the
forms come back providing consent, the issue is
resolved in favor of referral.
Id. However, according to Plaintiff, where the
original complaint overtly states, as his does, “No
Consent to Non-Judicial Decision-Making,” there
should be no activation of any referral policy. Id.
On July 19, 2017, Magistrate Judge Nowak entered
an order denying Plaintiffs Motion to Strike
Standing Order. (Dkt. # 16). According to Magistrate
Judge Nowak, Plaintiff “conflates pretrial referral
with consent to have a magistrate judge enter final
judgment.” Id. at 1. Magistrate Judge Nowak noted
that although parties in a case have a right to
consent to a magistrate judge entering final
judgment in the case pursuant to 23 U-S.C- § 636(c),
she explained “consent is not needed for pre-trial
referral.” Id. Consent is required only when a
magistrate judge is appointed to conduct proceedings
and enter judgment and is not required when the
district judge merely refers pretrial matters to a
magistrate judge for a determination of whether to
hold a hearing and to make findings and
recommendations. Id. at 1-2. According to Magistrate
A-17

9

Judge Nowak, to the extent Plaintiffs motion raised
an objection to the case being assigned to her for
final judgment or decision, such had not occurred;
and to the extent Plaintiff objected to referral for
pretrial proceedings, such objection was without
merit. Id. at 2.
On August 4, 2017, Plaintiff filed the first of five
Motions to Strike -Non-Consented to Magistrate
“Orders” (Dkt. # 26). According to Plaintiff, for civil
matters, the entirety of a magistrate [_l 6] judge’s
participation in the case “is 100% based 6h
unanimous consent,” and because he did not consent,
there cannot be a lawful referral at any time for any
reason. (Dkt. # 26 at 2). Plaintiff sought to strike the
orders previously entered by Judge Nowak at Docket
Entries #17 and #18. On August 14, 2017, Plaintiff
filed his current motion to transfer districts due to
the disqualification of the entire Eastern District of
Texas, along with a motion to strike Magistrate
Judge Nowak’s order entered at Docket Entry # 22.
Then on August 22, Plaintiff filed two separate
motions to strike Magistrate Judge Nowak’s orders
docketed as Docket Entries #30 and #41. Finally on
September 13, 2017, Plaintiff filed a motion to strike
Magistrate Judge Nowak’s September 7 Order
canceling the Rule 16 Management Conference
pending disposition of Plaintiffs current motion to
transfer districts.
PLAINTIFF’S MOTION
Plaintiff seeks the transfer of his case to another
district and “proposes the practical solution of
transferring this one to Dallas, which is expected to
be the next closest U.S. trial court that’s not tainted
A-18

by the Eastern District’s compelled-consent policy.”
(Dkt. # 42 at 10). Plaintiff relies on the disqualificatiqn standard provided in 28 U-S.C. § 455, asserting
all of the judges of this district should be disqualified
based on the district-wide policy of magistrate judge
referral at the time of filing. Id. at 10-12.
Specifically, Plaintiff asserts the Court’s General
Order 10-10 is directly at odds with the Court’s Local
Rule CV-72, which provides as follows:
(d) Assignment of Matters tp Magistrate
Judges.
The method for assignment of duties to a
magistrate judge and for the allocation of duties
among the several magistrate judges of the court
shall be made in accordance with orders of the
court or by special designation of a district judge.
(e) Disposition of Civil Cases by Consent of
the Parties - 28 U.S.C. § 636(c).
(1) The clerk of the court shall notify the parties
in all civil cases that they may [x 7] consent to
have a magistrate judge conduct any or all
proceedings in the case and order the entry of a
final judgment. Additional notices may be
furnished to the parties at later stages of the
proceedings, and may be included with pretrial
notices and instructions.
(2) The clerk shall not file consent forms unless
that have been signed by all the parties or their
respective counsel in a case. No consent form will
be made available, nor will the contents be made
known to any judge, unless all parties have
consented to the reference to a magistrate judge.

A-19

■'J

n

II

:1i
. a-.

3®

2

ME

Local Rule CV-72 (d) & (e).4
General Order 16-10 was signed by Chief Judge
Clark on September 1, 2016 and addresses
“divisional assignment and apportionment of cases
among United States Magistrate Judges” in the
Eastern District of Texas. Among other things,
General Order 16-10 “referred and assigned” to the
specific magistrate judges in each division a
percentage of the pro se non-prisoner cases. The
result is that 100% of all pro se non-prisoner cases
will be referred to a magistrate judge for pretrial
handling.6 Plaintiff takes issue with the Eastern
4 According to Plaintiff, although Local Rule
72(d) is a “little vague” by referencing “assignment”
rather than “designation” or “reference,” it is still
“fairly consistent” with 28 U.S.C. § 636(c) in that
“assignment of duties” may reasonably be under­
stood as “referral.” (Dkt. # 42 at 13).
5 Many of the district judges also have specific
referral orders for civil actions assigned to them. For
example, District Judge Rodney Gilstrap’s Referral
Order RG 72-1 provides that 50% of all Civil actions
filed in the Marshall Division that are assigned to
Judge Gilstrap are referred to Magistrate Judge
Payne for all pretrial proceedings; 40% of all civil
actions filed in the Texarkana Division are referred
to Magistrate Judge Craven for all pretrial
proceedings; and 60% of all civil actions filed in the
Tyler Division are referred equally to Magistrate
Judges Love and Mitchell for all pretrial
proceedings. Judge Gilstrap’s Referral Order RG
72-1 provides that it does not affect any General
Order or other established procedures for referral to
magistrate judges of special category cases.
A-20

District of Texas’ policy regarding magistrate judge
referral of pretrial matters at the time of filing
pursuant to General Order 1(3-1Q, stating this is not
about “designation” (at the time of filing) but rather
“reference” (at the time of filing). (Dkt. # 42 at
13). Plaintiff states he has overtly objected to any
magistrate judge referral, and he further asserts
[j_ 8] the “referral at filing” policy defies the plan
[plain] language of § 636 and the Court’s own Local
Rules. Id. at 14-15.
Specifically, Plaintiff argues the Court’s
magistrate referral policy: (1) violates the right not
to contract/agree/consent; (2) violates civil and
criminal law; (3) violates fundamental and statutory
rights of Due Process and Structural Due Process; (4)
violates fundamental right of access; and (5)
violates the fundamental right to a fair trial.
According to Plaintiff, these alleged violations raise a
“presumption of bias throughout the District”
because the entire district is subject to the
“compelled-consent policy.” (Dkt. # 42 at 34-35).
Plaintiff argues all locations in the district are
disqualified, and the case must be transferred to a
different district.
APPLICABLE LAW REGARDING
DISQUALIFICATION
Pursuant to 28 U.S.C. § 455(a), a judge “shall
disqualify himself in any proceeding in which his
impartiality might reasonably be questioned.”
Recusal under § 455 includes all federal judges.
Section 455(a) requires judicial recusal “if a
reasonable person, knowing all the circumstances,
wpuld believe it improper for the judge to sit in the
A-21

s

i

&
s

case in question.” Liljeberg v. Health Services
Acquisition Corp., 486 U.S. 847, 861 (1988). A party
proceeding under this section “must show that, if a
reasonable man knew of all the circumstances, he
would harbor doubts about the judge’s impartiality.”
Chitimacha Tribe v. Harry L. Laws Co., 690 F.2d
1157, 1165 (5th Cir. 1982), cert, denied, 464 U.S. 814
(1983). Recusal is required only if actual prejudice or
bias is proved by compelling evidence. Andrade v.
Chojnacki, 338 F.3d 448, 454-55 (5th Cir. 2003). A
motion to disqualify is committed to the sound
discretion of the judge. Id. at 1166.
DISCUSSION
Plaintiff argues for disqualification of every judge
in the Eastern District of Texas based on [± 9] the
district-wide policy of district judges referring pr6 se
cases to magistrate judges at the time of filing for
the purpose of handling all pretrial matters. Plaintiff
characterizes this policy as “compelled-consent” in
violation of 28 U.S.C. § 636.
Pursuant to 28 U.S.C. § 636(b)(1)(A) & (B), a
magistrate judge may hear and determine pretrial
matters, and also may make recommendations on
the disposition of dispositive motions. In delineating
a magistrate judge’s authority to determine a
matter, § 636 distinguishes between dispositive and
non-dispositive pretrial motions. See 28 U.S.C.
§ 636(b)(l)(A)-C). For non-dispositive motions, a
magistrate judge’s orders are “self-operating” and
thus “valid when entered.” United States v. Brown,
79 F.3d 1499, 1503 (7th Cir. 1996); see also In re U.S.
Healthcare, 159 F.3d 142, 145 (3d Cir. 1998) (“[I]n
general, a magistrate judge, without the consent of
A-22

the parties, has the power to enter orders which do
not dispose of the case.”).
For dispositive motions, in lieu of directly ruling
On the matter, the magistrate judge will submit a
report and recommendation to the district court
judge. Roper v. Board of County Comm’n. of Brevard
County, No. 6:06-cv-1551-Orl-19JGG, 2007 WL
4336170, at *4 (M.D. FI. Dec. 7, 2007). These orders
are “non-self-operating” in that the orders are not
valid “until the district judge accepts the
magistrate’s report and recommendation and enters
an order or judgment.” Brown, 79 F.3d at 1503.
In line with this authority, the Local Rules of the
Eastern District of Texas make clear that with the
consent of all the parties a magistrate judge can
conduct all proceedings in a civil trial, including
conducting the trial and entering final judgment.
Local Rule CV-72(a)(l)(C) (emphasis added). The
Local Rules further provide, in accordance with 28
U.S.C. § 636, that a judge may designate a
magistrate judge to hear and determine nondispositive matters and issue reports [_l 10] containing
proposed findings of fact and recommendations for
the disposition of dispositive matters.
Local Rule CV-72(a)(l)(F).6
General Order 16-10 does not contradict either

*■

-■* -5

"f 1

'W

6 Local rule CV-72(a)(l)(F) provides that a
magistrate judge is authorized to “[i]ssue any
preliminary orders and conduct any necessary
hearings or other appropriate proceedings in all
nonprisoner civil cases, and submit to a district judge
a report containing proposed findings of fact and
recommendations for the disposition of the case by
the district judge.”
A-23

fj
■fi

m

the Local Rules or the Federal Rules. Rather, it is
the Court’s method for assignment of duties to the
magistrate judges of the Eastern District of Texas,
and it assigns for pretrial purposes only, all pro se
civil cases to the appropriate magistrate judges
within each division. See Local Rule CV-72(d)
(Assignment of Matters to Magistrates [sic] Judges);
see also Yates v. Arkin, 242 Fed.Appx. 478, 481(l0th
Cir. May 22, 2007) (“District courts have broad
discretion to assign cases to particular judges.”).
The initial pretrial referral to a magistrate judge
does not encompass these things for which consent
wOuld be required, i.e. final Orders on dispositive
motions, conducting the trial, and entering final
judgment. Like magistrate judges throughout the
United States, magistrate judges in the Eastern
District of Texas, without the consent of the parties,
have the authority to enter orders involving nondispositive motions and can make recommended
findings regarding the disposition of dispositive
motions. Plaintiffs’ arguments to the contrary are
without merit and have been repeatedly rejected by
other courts.
In United States v. Fleming, No. 3:09cvl53-J34HTS, 2009 WL 10671227 (M.D. FI. Dec. 1, 2009),
the United States of America initiated an action to
reduce to judgment the unpaid tax liabilities of the
defendants and to foreclose on federal tax liens on
real property belonging to the defendants. Id. at *1.
One of the defendants filed a motion for extension of
time to respond to the [± 11] suit. In accordance with

the Local Rules for the United States f)istrict Court,
Middle District of Florida, the motion was referred to
a magistrate judge, who granted the motion and also
A-24

£

entered an order “directing the parties to comply
with the Federal Rules of Civil Procedure, Local
Rules of the Middle District of Florida, and any
applicable statutes and regulations.” Id. In response,
the defendants filed a motion to strike the
magistrate judge’s orders and to strike certain Local
Rules, requesting the magistrate judge handling the
case “be relieved of all duties” in the matter and that
the court strike his previously entered orders. Id.
Additionally, the defendants requested the court
“strike Local Rules 3.01(c)(1)(A) and (B), as well as
Local Rule 6.01(a)” because they had not consented
and had in fact actively withheld their consent to the
participation of magistrate judges in the handling of
the case.7 Id. According to the defendants, “because
the Local Rules automatically refer certain motions
to magistrate judges, without the parties’ consent,
thereby compelling their involuntary consent, these
Local Rules violate the due process and separation of
powers doctrines.” Id.
The court noted that pursuant to 28 U.S.C.
§ 636(b)(1)(A), a district court judge “may designate a
magistrate judge to hear and determine any pretrial
matter pending before the court.” Id. at * 2 (quoting
28 U.S.C. § 636(b)(1)(A)). According to the court,
“[t]he consent of the parties is not required for
referral of a pre-trial matter. Consent is only
required when the [mjagistrate [j]udge conducts a
trial.” Fleming, 2009 WL 10671227, at *2 (quoting
Roper, 2007 WL 4336170, *4). The court stated
magistrate judges in the Middle District of Florida
7 It appeared to the court that the defendants
objected to the participation of any magistrate judge
in the case. Fleming, 2009 WL 10671227, at *1.
A-25

.i..

“enjoy the broadest grant of authority permissible
under the statute.” Fleming, 2009 WL 10671227, at
*2. [_l 12]
Specifically, although consent of the parties is
required when a magistrate judge conducts a civil
trial, the Middle district of Florida’s “Local Rule
6.05(h) specifically provides that the rule requiring
consent for civil trials shall not be construed to limit
or affect the right of any judge or judges of the Court
to assign judicial duties or responsibilities to a
United States magistrate judge or magistrate judges
pursuant to Rule 6.01, or any standing order entered
under that rule, with or without the consent of the
parties.” Id. (internal quotations omitted). Thus,
despite the defendants’ arguments to the contrary,
the consent of the parties was not required in order
for the magistrate judge to rule on the motion for
extension. Fleming, 2009 WL 10671227, at *2 (citing
Cheshire v. Bank ofAmer., No. 09—10099, 2009 WL
3497732, at *1 (11th Cir. Oct. 30, 2009)). According
to the court, “the referral of the Motion for Extension
to the Magistrate Judge was accomplished by way
of the Local Rules, thus the Court did not need to
make a formal order of referral. As such, the Motion
for Extension, a pretrial matter, was properly before
the Magistrate Judge.” Fleming, 2009 WL 10671227,
at *2.
Because the motion for extension was a nondispositive, pretrial motion, the court held the
magistrate judge had the authority to enter an order
on the matter. Id. According to the court, the
magistrate judge also “had the authority to enter the
Order advising the [defendants], as pro se litigants,
of certain rules and procedures and directing them to
A-26

act in accordance with the Federal Rules of Civil
Procedure and the Court’s Local Rules.” Id.
In Lusick v. City of Philadelphia, 549 Fed.Appx.
56 (3d Cir. Oct. 9, 2013), a prisoner appealed from
orders entered in his civil rights action in the United
States District Court for the Eastern District of
Pennsylvania. His appeal challenged the authority of
the magistrate judge to deny his motion to clarify the
case status, correct the caption, and recommend his
complaint be dismissed [± 13] without prejudice. Id.
at 56. Contrary to Lusick’s argument, the Third
Circuit Court of Appeals held a magistrate judge’s
authority under subsection (b) of 28 U-S.C. § 636
does not depend on the “consent pf the parties.” Id.
The Third Circuit further held the magistrate judge
“acted properly within his statutory authority.” Id.
Further, the Supreme Court has recognized that:
The Federal Magistrates Act, 28 U.S.C. § 631 et
seq. (2000 ed. and Supp. V), permits district
courts to assign designated functions to
magistrate judges. ... They Q may hear and
determine, when designated to do so, any pretrial
matter pending before the district court, with the
exception of specified motions.
Gonzalez v. U.S., 128 S.Ct. 1765, 1767 (2008).
Here, pursuant to General Order 16-10, the Court
designated Magistrate Judge Nowak “to conduct
pretrial proceedings and submit proposed findings of
fact and recommendations for rulings pn dispositive
mptipns - something entirely consistent with the
statutory scheme.” Yates, 242 Fed.Appx. at 482; see
also Fleming, 2009 WL 10671227, at *2 (“Moreover,
the referral of the Motion for Extension to the
Magistrate Judge was accomplished by way of the
A-27

s%it|

-:. y

Local Rules, thus the Court did not need to make a
formal order of referral. As such, the Motion for
Extension, a pretrial matter, was properly before the
Magistrate Judge.”). The undersigned remains the
presiding judge assigned to Plaintiffs case because „
not all parties have consented to the magistrate
judge for all purposes. The undersigned will enter
final orders on any dispositive motions, conduct the
trial, and enter final judgment.
Magistrate Judge Nowak has acted properly
within her statutory authority. All of her orders
which Plaintiff seeks to strike have been entered on
nondispositive or case management issues.8 [± 14]
Thus, Plaintiffs motions to strike Judge Nowak’s
orders (Dkt. #s 26, 43, 47, 48 & 63] are denied.
Plaintiffs argument that the Eastern District of
Texas’ magistrate referral policy compels
consent is also without merit. (Dkt. # 42 at 10).
Contrary to Plaintiffs assertions, the Court’s policy
regarding magistrate judge pretrial referral does not
compel or coerce consent. Parties have the option to
consent, but they are free to withhold it without
adverse consequences. Local Rule CV-72(e)
specifically provides that no consent forms will be
made available, nor will the contents be made known
8 The Court notes that even orders entered by a
magistrate judge on nondispositive issues can be
appealed to the District Judge by way of a motion for
reconsideration. See 28 U.S.C. § [± 14] 636(b)(l)(A)(A
judge of the court may reconsider any pretrial matter
under this subparagraph (A) where it has been
shown that the magistrate judge’s order is clearly
erroneous or contrary to law.”); see also Local Rule
72(b).
A-28

to any judge, unless all parties have consented to the
assignment of the entire case to a magistrate judge.
As noted by Magistrate Judge Nowak in her July
19, 2Q17 Order, “Plaintiffs request [to strike her
orders] conflates pre-trial referral with consent to
have a magistrate judge enter final judgment.” (Dkt.
# 16 at 1). Plaintiff does not have the right to object
to the referral of pretrial matters to a magistrate
judge. See Franklin v. City of South Bend, 153 Fed.
Appx. 395, 396 (7th Cir.2005) (The Seventh Circuit
rejected an argument that the district court denied
him due process by assigning a magistrate judge
without his consent, stating “[t]he magistrate judge’s
involvement here, however, was limited to nondispositive matters such as granting a motion for
extension of time to file an answer ...; these pretrial
matters are the sort of tasks that Congress has
authorized magistrate judges to make without the
parties’ consent.”). Plaintiffs consent was
unnecessary for the referral of his case to Magistrate
Judge Nowak for pretrial purposes, thus Plaintiffs
due process and other arguments fail. See Fleming,
2009 WL 10671227, at *3 (rejecting the defendants’
arguments that the Local Rules allowing for
magistrate judge pretrial referral violated due
process [_l 15] and separation of power doctrines).
The Court’s procedure for referring cases to
magistrate judges for pretrial handling complies
with 28 U.S.C. § 636 and the case law surrounding
that statute’s application. Thus, there has been no
Violation of due process, civil or criminal law, right of
access, right to a fair trial, or the “right not to
contract/agree/consent” as urged by Plaintiff.
Plaintiffs arguments do not provide a basis for
A-29

r

a

-■

.-j

recusal or disqualification. As noted above, Plaintiff
relies on 28 U.S.C. § 455(a), which provides that a
judge is required to recuse himself “in any
proceeding in which his impartiality might
reasonably be questioned,” Plaintiff argues the
“Eastern District excuses itself from its oaths of
office ... to abide by the inapplicable legal standards
so as to do as it pleases, even in defiance of its very
own Local Rules, thereby giving rise to [Plaintiffs]
questioning of the Eastern District’s impartiality.”
(Dkt. # 42 at 17).
There being no “defiance of its very own Local
Rules,” or failure to abide by legal standards, the
Court’s impartiality is not called into question by the
magistrate judge referral procedures. Plaintiffs
assertions are insufficient to demonstrate that a
reasonable person, knowing all the circumstances,
would believe it improper for the judges of the
Eastern District of Texas, more specifically the
undersigned and Magistrate Judge Nowak, to
oversee proceedings in this case based on their
implementation of the Court’s referral policy. See
Liljeberg, 486 U.S. at 861. The Court’s impartiality
has not reasonably been called into question.
Additionally, the Supreme Court has held the
“extrajudicial source” doctrine applies to § 455(a).
Liteky v. United States, 510 U.S. 540, 554 (1994). The
“extrajudicial source” doctrine, which the Liteky
Court termed as one factor to consider in
determining whether recusal is necessary rather
than a doctrine, provides that “matters arising out of
the course of judicial proceedings are not a proper
basis for recusal.” Id. The Court further explained in
Liteky that “judicial rulings alone [j. 16] almost
A-30

1

never constitute a valid basis for a bias or partiality
motion.” Id., citing United States y. Qrinnell Corp.,
384 U.S. 563, 583 (1966). Here, the Court’s actions,
all of which occurred in the course pf these judicial
proceedings, do not display deep-seated arid
unequivocal antagonism that would render fair
judgment impossible. Liteky, 510 US- at 556.
Plaintiffs motion for disqualification of the entire
Pastern District pf Texas is denied. Accordingly,
Plaintiffs motion to transfer to the Northern District
of Texas, Dallas Division, likewise is denied. There
being no justification for transfer of this case, it is
ORDERED that Plaintiffs Motion to Transfer
Districts Due to the Disqualification of the
Entire Eastern District (Dkt. #42) is hereby
DENIED. It is further
ORDERED that Motion to Strike Non-Consented
to Magistrate “Orders” (17, 18) (Dkt. # 26); Motion to
Strike Non-Consented to Magistrate “Order” (22-1)
(Dkt. # 43); Motion to Strike Non-Consented to
Magistrate “Order” (30-1) (Dkt. # 47); Motion to
Strike Non-Consented to Magistrate “Order” (41-1)
(Dkt. # 48); and Motion tp Strike Non-Consented to
Magistrate “Order” (58-1) (Dkt. # 63) are DENIED.
SIGNED this 19th day of December, 2017.
/s/ Amos Mazzant
AMOS L. MAZZANT
UNITED STATES DISTRICT JUDGE

A-31

i

3#^
§f:

an
Sr"
••v
-7'

.3

E.D.Tex. (July 7. 2017) Referral (“at filing”).
Case 4:17-cv-00488-ALM-CAN Document 13 Filed
07/14/17 Page 5 of 5 PagelD #: 158
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TEXAS
MAGISTRATE REFERRAL
CIVIL ACTION NO. 4:17cv488
Taylor
v.
City of Sherman, et al.
Pursuant to a Standing Order, certain civil suits are
referred at the time of filing equally among
magistrate judges. Therefore, the above-titled action
has been referred to:
Magistrate Judge Nowak

1 See A-16 n.3.
A-32

E.D.Tex. (Sept. 1. 2016) Standing Order No. 16-

ia
Case 4:17-cv-00488-ALM-CAN Document 42 Filed
Q8/14/17 Page 38 of 40 PagelD #: 392
GENERAL ORDER NO. 16-10
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT QF TEXAS
GENERAL ORDER RE: DIVISIONAL
ASSIGNMENT AND APPORTIONMENT OF
CASES AMONG UNITED STATES
MAGISTRATE JUDGES
It is hereby ORDERED that matters referred and
assigned to United States Magistrate Judges in this
district shall be directed and apportioned as follows:
I. Divisional Assignments
Division
Beaumont

Magistrate
Hon. Keith Giblin = 50% Criminal,
Prisoner Civil Rights, Social
Security, Pro Se Non-Prisoner and
2254 & 2255 Habeas
Hon. Zack Hawthorn = 50%
Criminal, Prisoner Civil Rights,
Social Security, Pro Se Npn-Prispner
and 2254 & 2255 Habeas
A-33

Lufkin

Hon. Keith Giblin = 50% Criminal,
Prisoner Civil Rights, Social
Security, Pro Se Non-Prisoner and
2254 & 2255 Habeas
Hon. Zack Hawthorn = 50%
Criminal, Prisoner Civil Rights,
Social Security, Pro Se Non-Prisoner
and 2254 & 2255 Habeas

Texarkana Hon. Caroline Craven = 100%
Criminal, Prisoner Civil Rights,
Social Security, Pro Se Non-Prisoner
and 2254 & 2255 Habeas
Marshall

Hon. Roy Payne = 100% Criminal,
Prisoner Civil Rights, Social
Security, Pro Se Non-Prisoner and
2254 & 2255 Habeas

Sherman

Hon. Christine Nowak = 50%
Criminal, Prisoner Civil Rights,
Social Security, Pro Se Non-Prisoner
and 2254 & 2255 Habeas [± 2]
Hon. Kimberly Johnson = 50%
Criminal, Prisoner Civil Rights,
Social Security, Pro Se Non-Prisoner
and 2254 & 2255 Habeas

Tyler

Hon. John Love = 50% Criminal,
Prisoner Civil Rights, Social
Security, Pro Se Non-Prisoner and
2254 & 2255 Habeas
A-34

■

■«

Hon. Nicole Mitchell = 50%
Criminal, Prisoner Civil Rights,
Social Security, Pro $e Non-Prisoner
and 2254 & 2255 Habeas
II. Apportionment
In divisions served by more than one magistrate
judge, matters shall be referred and assigned as
follows:
A. Civil Cases:
1. Prisoner suits shall be referred at the time
of filing equally among magistrate judges
with concurrent civil case responsibilities
except as specified above. Prisoner suits
shall automatically be assigned to the
magistrate judge to whom the case
originally was referred when parties
consent to trial and entry of judgment by a
magistrate judge.
2. All other civil matters shall be referred or
assigned randomly except as specified
above or unless a specific order of the court
directs otherwise.
B. Criminal Cases:
1. Magistrate judges shall rotate
responsibilities for handling unscheduled
matters and cases processed through the
Central Violations Bureau (CVB) so that
A-35

4

each has equal duty time.
2. Except when governed by General Order
93-6:
a. Class A misdemeanor cases shall be
assigned randomly to a magistrate
judge when the case is filed except as
specified above.
b. Class B and Class C misdemeanors and
infractions, except CVB cases, shall be
assigned to the duty magistrate judge at
the time of defendants first appearance
in this district. [_l 3]
III. Miscellaneous
A Assignment of additional duties to magistrate
judges will be made as deemed appropriate.
B. Transfers between magistrate judges to
equalize dockets and for other appropriate
reasons shall be entered from time to time
upon concurrence of the transferee judge.
C. This order supersedes all prior general orders
governing divisional assignments and
allocation of duties of magistrate judges.
Individual district judges ad hoc and standing
orders governing specific referrals and
assignments of cases to magistrate judges are
unaffected by this Order.
A-36

This general order supersedes its predecessor,
General Order 15-17.
SIGNED September 1, 2016.
FOR THE COURT:
Ron Clark
Chief Judge

Rule 14. l(i)(iii)—-Rehearing
None.
Rule 14.1(i)(iv)—Judgment of Different Date
None.
■■-y

I

Rule 14.1(i)(v)—Statutes
Tex. Transp. Code § 502.001(45') (“vehicle”').
“Vehicle” means a device in or by which a person
or property is or may be transported pr drawn
[i.e., towed] on a public highway ....

A-37

->•

28 U.S.C.A. § 636(0) (in relevant part)
§ 636(c)(1) “Upon the consent of the parties.” ...
“Upon the consent of the parties.”
§ 636(c)(2) If a magistrate judge is designated to
exercise civil jurisdiction under paragraph (1) of
this subsection, the clerk of the court shall, at the
time the action is filed, notify the parties of the
availability of a magistrate judge to exercise
such jurisdiction. The decision of the parties
shall be communicated t6 the clerk of the
court. Thereafter, either the district court judge
or the magistrate judge may again advise the
parties of the availability of the magistrate
judge, but in so doing, shall also advise the
parties that they are free to withhold
consent without adverse substantive
consequences. Rules of court for the
reference of civil matters to magistrate
judges shall include procedures to protect
the voluntariness of the parties’ consent.
28 U.S.C.A. § 636(c)(1), (c)(2) (all emphasis added).

Rule 14.1(i)(vi)—Additional materials
Reference to the Record will suffice, in particular,
no “transportation,” frofti £)0C. [1-1], R6A.12 (A-ii),
and no “cdfisetit,” from f)ocs. [1-1], ftOA.6l (A-46 to
A-47), and [23], ROA.208 to .220 (Affid. and, in
particular, Exs. A to D).
A-38

v*-

